            AUDIT OF THE

                        

   MILWAUKEE POLICE DEPARTMENT’S

                                

EQUITABLE SHARING PROGRAM ACTIVITIES

                                    

       MILWAUKEE, WISCONSIN




       U.S. Department of Justice


     Office of the Inspector General

                                    

              Audit Division

                            



      Audit Report GR-50-13-010

                               

              July 2013

                       

                         AUDIT OF THE

                                     

                MILWAUKEE POLICE DEPARTMENT’S

                                             

             EQUITABLE SHARING PROGRAM ACTIVITIES

                                                 

                    MILWAUKEE, WISCONSIN



                             EXECUTIVE SUMMARY

                                              


      The U.S. Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division, has completed an audit of the use of DOJ equitable
sharing revenues by the Milwaukee, Wisconsin, Police Department
(Milwaukee PD). Equitable sharing revenues represent a share of the
proceeds from the forfeiture of assets seized in the course of certain criminal
investigations. 1 During the period of January 1, 2010, through
December 31, 2011, the Milwaukee PD received DOJ equitable sharing
revenues totaling $3,102,153 to support law enforcement operations. 2

      The objective of the audit was to assess whether equitably shared cash
and property received by the Milwaukee PD was accounted for properly and
used for allowable purposes as defined by the applicable regulations and
guidelines. We found that the Milwaukee PD complied with equitable sharing
guidelines with respect to permissible uses of equitable sharing funds.
However, we identified the following deficiencies:

       •	 The Milwaukee PD filed its certification report late in 2010 and
        	
            2011.

       •	 The Milwaukee PD erroneously included a state-seized vehicle on its
        	
          2011 certification report.

       •	 The Milwaukee PD failed to obtain permission to sell a vehicle,
        	
          acquired through the equitable sharing program, within 2 years of
          acquiring it. Program guidelines require participants selling assets
          within 2 years of receipt to deposit the proceeds of the sale into its
          DOJ equitable sharing account, and the Milwaukee PD did not do so.




       1
           The DOJ asset forfeiture program has three primary goals: (1) to punish and
deter criminal activity by depriving criminals of property used or acquired through illegal
activities; (2) to enhance cooperation among foreign, federal, state, and local law
enforcement agencies through equitable sharing of assets recovered through this program;
and, as a by-product, (3) to produce revenues to enhance forfeitures and strengthen law
enforcement.
       2
           The Milwaukee PD fiscal year begins on January 1 and ends on December 31.
     •	 In FY 2010, the city of Milwaukee inaccurately reported equitable
      	
        sharing expenditures on its Schedule of Expenditures of Federal
        Awards within its Single Audit Report.

      Our report contains four recommendations that address the
weaknesses we identified. Our findings are discussed in detail in the
Findings and Recommendations section of the report. The audit objective,
scope, and methodology are included in Appendix I.




                                   - ii ­
                                  TABLE OF CONTENTS

                                                   


INTRODUCTION ....................................................................................1

                                                                                                  


  Background ..........................................................................................1

                                                                                                        

  OIG Audit Approach ...............................................................................2

                                                                                                     


FINDINGS AND RECOMMENDATIONS ....................................................3

                                                                                  


  Accounting for Equitably Shared Resources...............................................3

                                                                                           

  Compliance with Audit Requirements .......................................................5

                                                                                             

  Equitable Sharing Agreement and Annual Certification Report .....................6

                                                                                    

  Monitoring Applications for Transfer of Federally Forfeited Property .............7

                                                                                     

  Use of Equitably Shared Resources ..........................................................7

                                                                                               

  Views of Responsible Officials................................................................ 10

                                                                                                   

  Recommendations ............................................................................... 10

                                                                                                    


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ......................11

                                                                       


APPENDIX II - AUDITEE RESPONSE ....................................................13

                                                                                     


APPENDIX III - U.S. DEPARTMENT OF JUSTICE RESPONSE .................15

                                                                      


APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL ANALYSIS
                 

              AND SUMMARY OF ACTIONS NECESSARY
               

              TO CLOSE THE REPORT ..............................................17

                                                                                  

                                 INTRODUCTION
       The U.S. Department of Justice (DOJ), Office of the Inspector General
(OIG), Audit Division, has completed an audit of the use of DOJ equitable
sharing revenues by the Milwaukee, Wisconsin, Police Department
(Milwaukee PD). The audit covered the Milwaukee PD’s fiscal years (FY) 2010
and 2011. 3 During that period, the Milwaukee PD received $3,102,153 in
equitable sharing revenues from DOJ to support law enforcement operations.
The objective of the audit was to assess whether equitably shared cash and
property received by the Milwaukee PD was accounted for properly and used
for allowable purposes as defined by the applicable regulations and guidelines.

Background

       The primary mission of the DOJ Asset Forfeiture Program is to employ
asset forfeiture powers in a manner that enhances public safety and security.
This is accomplished by removing the proceeds of crime and other assets relied
upon by criminals and their associates to perpetuate their criminal activity
against our society. Asset forfeiture has the power to disrupt or dismantle
criminal organizations that would continue to function if we only convicted and
incarcerated specific individuals.

      Another purpose of the DOJ Asset Forfeiture Program is to enhance
cooperation among federal, state, and local law enforcement agencies by
sharing federal forfeiture proceeds through the DOJ equitable sharing program.
State and local law enforcement agencies may receive equitable sharing
revenues by participating directly with DOJ agencies in joint investigations
leading to the seizure or forfeiture of property. The amount shared with the
state and local law enforcement agencies in joint investigations is based on the
degree of the agencies’ direct participation in the case. The U.S. Department
of the Treasury (Treasury) administers a similar equitable sharing program.
Our audit was limited to equitable sharing revenues received through the DOJ
equitable sharing program.

       Although several DOJ agencies are involved in various aspects of the
seizure, forfeiture, and disposition of equitable sharing revenues, the
DOJ Criminal Division, Asset Forfeiture and Money Laundering Section
(AFMLS), is responsible for issuing policy statements, implementing governing
legislation, and monitoring the use of DOJ equitable sharing funds. Generally,
the use of equitable sharing revenues by state and local recipient agencies is
limited to law enforcement purposes. However, under certain circumstances,
up to 15 percent of the total equitable sharing revenues received by the
agency in the last 2 fiscal years may be used for the costs associated with drug


     3
         The Milwaukee PD fiscal year begins on January 1 and ends on December 31.
abuse treatment, drug and crime prevention education, housing and job skills
programs, or other nonprofit community-based programs or activities. This
provision requires that all expenditures be made by the law enforcement
agency and does not allow for the transfer of cash.

      The Milwaukee PD is located in the city of Milwaukee, Wisconsin, in the
southeast section of the state; with a population of nearly 600,000, it is the
largest city in Wisconsin. The Milwaukee PD’s law enforcement budgets were
$237.35 million in FY 2009, $216.87 million in FY 2010, and $229.35 million in
FY 2011.

OIG Audit Approach

       We tested compliance with what we considered the most important
conditions of the DOJ equitable sharing program. Unless otherwise stated, we
applied the Guide to Equitable Sharing for State and Local Law Enforcement
Agencies, dated April 2009 (2009 Equitable Sharing Guide) as our primary
criteria. The 2009 Equitable Sharing Guide identifies the accounting
procedures and requirements for tracking equitably shared monies and
tangible property, establishes reporting and audit requirements, and defines
the permissible uses of equitably shared resources.

     To conduct the audit, we tested the Milwaukee PD’s compliance with the
following aspects of the DOJ equitable sharing program:

     •	 Accounting for equitably shared resources to determine whether
      	
        standard accounting procedures were used to track equitable sharing
        assets.

     •	 Compliance with audit requirements to ensure the accuracy,
      	
        consistency, and uniformity of audited equitable sharing data.

     •	 Equitable Sharing Agreement and Annual Certification Reports
      	
        to determine if these documents were complete, accurate, and timely
        submitted.

     •	 Monitoring of Applications for Transfer of Federally Forfeited
      	
        Property to ensure adequate controls were established.

     •	 Use of equitably shared resources to determine if equitable
      	
        sharing funds were spent for permissible uses.

     See Appendix I for more information on our objective, scope, and 

methodology.

            




                                     -2­
               FINDINGS AND RECOMMENDATIONS

     We found that the Milwaukee PD complied with equitable sharing
     guidelines with respect to permissible uses of DOJ equitable
     sharing funds. However, we found that the Milwaukee PD
     submitted its 2010 and 2011 Equitable Sharing Agreement and
     Certification Reports late and erroneously included a state-seized
     car on its 2011 report. We also found that the Milwaukee PD
     failed to receive permission to sell a vehicle before meeting the
     2-year possession requirement and did not deposit the proceeds
     of this sale into its DOJ equitable sharing account, as required by
     program guidelines. Finally, we found that the city of Milwaukee
     inaccurately reported the Milwaukee PD’s equitable sharing
     expenditures on its Schedule of Expenditures of Federal Awards
     within its FY 2010 Single Audit Report.

Accounting for Equitably Shared Resources

      The 2009 Equitable Sharing Guide requires that all participating state
and local law enforcement agencies implement standard accounting procedures
to track equitably shared monies and property. Additionally, DOJ equitable
sharing funds must be accounted for separately from any other funds.

      Through our review of Milwaukee PD official accounting records, we
determined that the Milwaukee PD received all equitable sharing receipts via
Electronic Fund Transfers (EFT) and maintained these funds in a separate
account specifically reserved for DOJ asset forfeiture funds.

      To determine whether the Milwaukee PD’s accounting procedures
adequately tracked equitably shared monies and property and separately
accounted for DOJ equitable sharing funds, we compared AFMLS equitable
sharing distribution reports to Milwaukee PD accounting records, and we
considered the results of our work performed as reported in the Use of
Equitably Shared Resources section of this report.

       We reviewed the AFMLS report of DOJ equitable sharing distributions,
which disclosed that the Milwaukee PD received equitable sharing funds
totaling $3,102,153 during the period of January 1, 2010, through
December 31, 2011. To verify the total amount of equitable sharing funds
received during our review period, we compared the receipts listed on the
Milwaukee PD’s Equitable Sharing Agreement and Annual Certification Reports
to the total amounts listed as disbursed on the DOJ’s Consolidated Asset
Tracking System (CATS) reports. As shown in Table 1, we did not identify any
discrepancies.



                                     -3­
                        TABLE 1: RECEIPTS COMPARISON
  

                          Receipts Per
           Fiscal                       Disbursements Per
                          Certification
           Year                            CATS Report                       Difference
                             Report
           2010            $2,088,443       $2,088,443                             $0
           2011             1,013,710        1,013,710                              0
       Totals               $3,102,153               $3,102,153                    $0
 Source: Milwaukee PD Certification and CATS reports

      During this period, the Milwaukee PD also received equitably shared
tangible property in the form of vehicles. The Milwaukee PD’s certification
reports reported that it received six equitably shared vehicles in FYs 2010 and
2011. Our testing of these vehicles is addressed in the Use of Equitably
Shared Resources section of this report.

      From January 2010 through December 2011, the CATS report recorded
equitable sharing receipts totaling $3,102,153 for the Milwaukee PD, as shown
in Table 1. We reconciled the CATS report to the E-Share log from the USMS
and found that the receipts matched. 4 As shown in Table 2, we then
judgmentally selected and reviewed five of the highest receipts from FY 2010
and FY 2011, totaling $1,475,053, to ensure that these monies were properly
deposited and timely recorded. We found that the Milwaukee PD appropriately
deposited its asset forfeiture receipts and recorded them in its accounting
records in a timely manner.




       4
         E-Share is the United States Marshals Service program used to make equitable
sharing payments to federal, state, and local law enforcement agencies through electronic
funds transfer. An e-mail payment notification is sent to the participating agency within
5 business days after the funds are deposited in the recipient’s bank account.

                                            -4­
          TABLE 2: SAMPLED RECEIPTS IN FY 2010 AND FY 2011

                                                          


                     Date Received                           Date Received
   Sample              Per USMS            Amount                 Per                 Amount
    Count             CATS Report          Received          Milwaukee PD             Received
                                                                Records


          1          02/16/2010              $900,005          02/16/2010             $900,005
          2          08/12/2010               238,496          08/12/2010              238,496
          3          11/26/2010               184,086          11/29/2010 5            184,086
          4          12/28/2010                58,630          12/28/2010               58,630
          5          07/18/2011                93,836          07/18/2011               93,836
                  TOTALS                  $1,475,053                               $1,475,053
  Source: E-Share log from USMS and Accounting Records from the Milwaukee PD

Compliance with Audit Requirements

       The 2009 Equitable Sharing Guide requires the Milwaukee PD to comply
with audit requirements of the Single Audit Act Amendments of 1996 and
OMB Circular A-133, Audits of States, Local Governments, and Non-Profit
Organizations (OMB Circular A-133). OMB Circular A-133 requires non-federal
entities to prepare a Schedule of Expenditures of Federal Awards for the period
covered by the auditee's financial statements. The Schedule of Expenditures
of Federal Awards is included within the entity’s Single Audit Report.

       To determine if the Milwaukee PD accurately reported DOJ equitable
sharing fund expenditures on its Schedule of Expenditures of Federal Awards,
we reviewed the Milwaukee PD’s accounting records and the city of Milwaukee
Single Audit Report for the year ended December 31, 2010. 6 We found that
the city of Milwaukee did not accurately report DOJ equitable sharing fund
expenditures on the Schedule of Expenditures of Federal Awards as required by
OMB Circular A-133. While the Milwaukee PD accurately reported FY 2010
equitable sharing expenditures of $1,673,843 on its FY 2010 Annual
Certification Report, the city of Milwaukee’s 2010 Single Audit Report reported
only $216,540 in equitable sharing expenditures.

      According to the city of Milwaukee Comptroller’s Office, which prepared
the Schedule of Expenditures of Federal Awards, it failed to report all equitable
sharing expenditures for FY 2010 because of how it accounts for these funds.
Specifically, the city separately identifies all equitable sharing funds received in
          5
         November 26, 2010, was a Friday, and the deposit was not recorded on the auditee’s
bank records until the following Monday, November 29, 2010.
          6
              At the time of our audit, the FY 2010 Single Audit report was the most recent report
issued.
                                                 -5­
a fiscal year as funds for that fiscal year (e.g., all equitable sharing funds
received in FY 2010 were recorded as FY 2010 funds, while all equitable
sharing funds received in FY 2009 were recorded as FY 2009 funds). The city
then reported on its FY 2010 Schedule of Expenditures of Federal Awards only
those FY 2010 equitable sharing expenditures paid from its FY 2010 funds.
Additionally, according to a Milwaukee PD official, the city’s reported
expenditures on the Schedule of Expenditures of Federal Awards also excluded
all equipment expenditures for that same fiscal year.

       After discussing this issue with the city Comptroller’s Office, officials
stated that they were working to correct the problem. We recommend that the
AFMLS require that equitable sharing expenditures be reported accurately on
the city of Milwaukee’s Schedule of Expenditures of Federal Awards.

Equitable Sharing Agreement and Annual Certification Report

      AFMLS requires that any state or local law enforcement agency that
receives forfeited cash, property, or proceeds because of a federal forfeiture
submit an Equitable Sharing Agreement and Annual Certification Report. The
submission of this form is a prerequisite for the approval of any equitable
sharing request. Noncompliance may result in the denial of the agency’s
sharing request. The Equitable Sharing Agreement and Annual Certification
Report must be submitted every year within 60 days after the end of the
agency’s fiscal year regardless of whether funds were received or maintained
during the fiscal year. The head of the law enforcement agency and a
designated official of the local governing body must sign the agreement. By
signing the agreement, the signatories agree to be bound by the statutes and
guidelines that regulate the equitable sharing program and certify that the law
enforcement agency will comply with these guidelines and statutes.

       We tested compliance with the certification report requirements to
determine if the required forms for FYs 2010 and 2011 were accurate and
complete. We determined that the forms for FYs 2010 and 2011 reflected the
Milwaukee PD’s equitable sharing receipts and expenditures and that the
appropriate officials had signed the forms. However, we found a discrepancy
with the transfer of property reported on the FY 2011 certification report. This
is further discussed in the Use of Equitably Shared Resources section of this
report.

      We also found that the reports were not submitted in a timely manner.
The Milwaukee PD filed its 2010 certification report 97 days late and its 2011
report 124 days late. The Milwaukee PD Finance and Planning Manager
explained that the city comptroller’s office does not officially finalize the prior
year’s books in time for submission of the certification report. In our opinion,
the information the Milwaukee PD needs to complete its certification report in a

                                       - 6 ­

timely manner is available, even though the city’s accounting records are not
yet officially finalized for the fiscal year.

Monitoring Applications for Transfer of Federally Forfeited Property

      The 2009 Equitable Sharing Guide states that all participating agencies
should maintain a log of all sharing requests that consecutively numbers the
requests and includes the seizure type, seizure amount, share amount
requested, amount received, and date received for each request. The
2009 Equitable Sharing Guide requires that the log be updated when an
E-Share notification is received.

       We reviewed the Milwaukee PD’s DAG-71 log and found that it contained
all of the required information, and that the Milwaukee PD updated the log
when an E-Share notification was received. We interviewed the Milwaukee PD
Finance and Planning Manager regarding the procedures for monitoring and
reconciling equitable sharing requests and receipts. He explained that he
receives notification from the city Comptroller’s Office that a deposit has been
made to the Milwaukee PD Equitable Sharing account, and he matches that
information to the Applications for Transfer of Federally Forfeited Property
(DAG-71). 7 He further stated that at the end of the year, he requests from
AFLMS a printout of the year’s transfers. He then matches his records and the
DAG-71s against the AFMLS printout. We believe these procedures are
adequate and in line with the requirements set forth in the 2009 Equitable
Sharing Guide.

Use of Equitably Shared Resources

      The 2009 Equitable Sharing Guide requires that equitable sharing funds
received by state and local agencies be used for law enforcement purposes.
However, under certain circumstances, up to 15 percent of the total equitable
sharing revenues the agency received in the last 2 fiscal years may be used for
the costs associated with nonprofit community-based programs or activities,
such as drug abuse treatment, drug and crime prevention education, and
housing and job skills programs. Law enforcement agencies can also transfer
cash to another law enforcement agency.

Use of Equitably Shared Funds

      According to its accounting records and certification reports, the
Milwaukee PD expended DOJ equitable sharing funds totaling $1,673,843 in
FY 2010 and $762,919 in FY 2011, for a total of $2,436,762. We judgmentally
selected and tested 12 transactions, totaling $1,535,262, or 63 percent of the

      7
         The DAG-71 is the DOJ form submitted by a state or local agency to the federal
seizing agency to request a share of seized assets.
                                            -7­
total expended, to determine if the expenditures of DOJ equitable sharing
funds were allowable and supported by adequate documentation. We
determined that of the sampled transactions, the Milwaukee PD spent
$1,261,762 for the purchase of equipment and licenses, $145,000 for
consultants, $107,705 for remodeling of police facilities, $12,750 for a
community program, and $8,045 for training.

       Several of the 12 transactions we tested consisted of multiple items and,
with the exception of one transaction, we tested all items in the transaction.
One transaction we tested consisted of 225 portable radios purchased with
equitable sharing funds and assigned to officers. We judgmentally selected
for testing 24 of the 225 portable radios purchased. We confirmed the
permissible use and possession of the selected equipment and physically
verified four radios while on site. We confirmed the remaining 20 radios by
sending confirmation letters to the officers in possession of the radios. The
officers signed and returned to us these letters, attesting that they possessed
the radio assigned to them and that the radio was being used permissibly. For
the remaining 11 transactions that we tested, we determined that the
equipment or services purchased were supported by adequate documentation
and were being used for allowable law enforcement purposes.

     Based on our review of supporting documentation provided by the
Milwaukee PD, we determined that its DOJ equitable sharing fund
expenditures were supported by adequate documentation and were used for
appropriate purposes.

Use of Equitably Shared Property

      The 2009 Equitable Sharing Guide requires that any forfeited tangible
property transferred to a state or local agency for official use must be used for
law enforcement purposes only. Further, vehicles and other tangible property
transferred for official law enforcement use must be used accordingly for at
least 2 years. However, if the property becomes unsuitable for such stated
purposes before the end of the 2-year period, it may be sold with approval
from AFMLS and the proceeds are to be deposited in the agency’s DOJ
equitable sharing revenue account.

      The Milwaukee PD’s Equitable Sharing Agreement and Certification
Reports identified that it received a total of six equitably shared vehicles in
FYs 2010 and 2011. Through our review, we found that one vehicle, a 2005
Cadillac CTS listed on the Milwaukee PD’s 2011 Certification Report, was not on
the 2011 CATS Report. The Milwaukee PD Finance and Planning Manager
explained that the Milwaukee PD received this vehicle through a state seizure,
not a federal seizure, and it should not have been listed on this report to
DOJ. We believe the Milwaukee PD should issue a corrected 2011 Certification
Report to remove this state-seized vehicle.
                                        -8­
     We tested the remaining five equitably shared vehicles listed on the
Milwaukee PD Certification Reports and the CATS reports for FY 2010 and
FY 2011, as listed in Table 3.

                   TABLE 3: EQUITABLY SHARED VEHICLES
                     RECEIVED IN FY 2010 AND FY 2011

          Vehicle                                                Transaction
          Number             Vehicle Description                   Amount

              1             1999   GMC Sierra 1500                      $  6,975
              2             2007   Cadillac Escalade                      29,150
              3             2007   Toyota 4Runner                         17,175
              4             2007   Mitsubishi Outlander ES                10,025
              5             2008   Toyota Camry                           N/A 8
                                     TOTAL                              $63,325
          Source: Milwaukee PD and AFMLS

       We noted that Vehicle Number 1, a 1999 GMC Sierra 1500, had been
transferred to the Milwaukee PD on October 6, 2010, and the Milwaukee PD
sold it for $7,925 on November 10, 2010, without receiving permission from
AFMLS. According to the Milwaukee PD, the vehicle was unsuitable and
mechanically unreliable for official use in undercover operations.

      In addition, the proceeds from the sale were deposited into the city’s
parking fund, not the DOJ equitable sharing fund, as required by the
2009 Equitable Sharing Guide. In order to correct this situation, the
Milwaukee PD provided documentation that it reimbursed its DOJ equitable
sharing fund via journal entry on February 15, 2013, for the $7,925 proceeds
from the sale of the vehicle in November 2010.

       We believe the Milwaukee PD should establish a procedure to ensure it
requests permission from AFMLS before selling equitably shared property that
is not maintained for the required 2-year period and that it deposits the
proceeds from any such sale into its DOJ equitable sharing fund.

Supplanting

      The 2009 Equitable Sharing Guide also requires that shared resources be
used to increase or supplement the resources of the recipient agency and

      8
          The 2008 Toyota Camry was seized and ready to be transferred to the Milwaukee PD.
However, the vehicle was not yet adjudicated. Therefore, the vehicle was in Milwaukee PD
storage, and we were able to verify its existence. However, AFMLS had not yet assigned the
vehicle a transaction amount.
                                           -9­
prohibits the use of shared resources to replace or supplant the appropriated
resources of the recipient. To test whether equitable sharing funds were used
to supplement rather than supplant local funding, we reviewed the
Milwaukee PD’s local budgets for FYs 2009 through 2012 and sampled FY 2010
and FY 2011 expenditures.

       Through our review of the Milwaukee PD’s budget documents, we found
that the Milwaukee PD’s total budgeted appropriations have been flat or risen
slightly with the exception of FY 2010, which decreased by approximately
$20.5 million from FY 2009. Through our review of the Milwaukee PD’s budget
documents and an interview with a Milwaukee PD budget official, we
determined the decrease was the result of citywide budget reductions.
Further, our testing of sampled expenditure transactions did not reveal any
evidence of supplanting. Therefore, we concluded that the city of Milwaukee
did not use DOJ equitable sharing funds to supplant the Milwaukee PD’s
budget.

Views of Responsible Officials

      We discussed the results of our review with Milwaukee PD officials
throughout the audit and at a formal exit conference. Their input on specific
issues has been included in the appropriate sections of the report.

Recommendations

     We recommend that the Criminal Division:

     1.	
       	   Ensure that the city of Milwaukee accurately reports the
           Milwaukee PD’s equitable sharing expenditures on its Schedule of
           Expenditures of Federal Awards.

     2.	
       	   Ensure that the Milwaukee PD submits all required Equitable
           Sharing Agreement and Certification Reports in a timely manner.

     3.	
       	   Ensure that the Milwaukee PD submits a corrected 2011 Equitable
           Sharing Agreement and Annual Certification Report reflecting the
           correct number of vehicles that were received through the DOJ
           equitable sharing program.

     4.	
       	   Ensure that the Milwaukee PD establishes procedures to ensure
           that it receives permission from AFMLS before it sells any equitably
           shared property that has not been maintained for the required
           2-year period and that it deposits any proceeds from such a sale to
           its DOJ equitable sharing fund.


                                     - 10 ­
                                                                  APPENDIX I

             OBJECTIVE, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

      The objective of the audit was to assess whether equitably shared cash
and property received by the requesting agency was accounted for properly
and used for allowable purposes as defined by the applicable regulations and
guidelines. We tested compliance with what we considered the most important
conditions of the DOJ equitable sharing program. We reviewed laws,
regulations, and guidelines governing the accounting for and use of DOJ
equitable sharing receipts, including the Guide to Equitable Sharing for State
and Local Law Enforcement Agencies, dated April 2009. Unless otherwise
stated in our report, the criteria we audit against are contained in these
documents.

Scope and Methodology

      Our audit concentrated on, but was not limited to, equitable sharing
funds received by the Milwaukee PD from January 1, 2010, through
December 31, 2011. During this period, the Milwaukee PD received
$3,102,153 and expended $2,436,762 in DOJ equitable sharing funds. We
tested 5 DOJ equitable sharing receipts (totaling $1,475,053) and judgmentally
selected a sample of 12 expenditure transactions (totaling $1,535,262) for
testing. We applied a judgmental sampling design to obtain broad exposure to
numerous facets of the disbursements reviewed, such as dollar amounts and
cost categories. This non-statistical sample design does not allow projection of
the test results to all disbursements.

      We performed audit work at Milwaukee PD headquarters located in
Milwaukee, Wisconsin. To accomplish the objective of the audit, we
interviewed Milwaukee PD officials and examined records, and related
revenues, and expenditures of equitable sharing revenues and expenditures.
In addition, we relied on computer-generated data contained in CATS for
determining equitably shared revenues and property awarded to the Milwaukee
PD during the audit period. We did not establish the reliability of the data
contained in CATS as a whole. However, when the data we relied upon is
viewed in context with other available evidence, we believe the opinions,
conclusions, and recommendations included in this report are valid.

                                     - 11 ­
      In planning and performing our audit, we considered internal controls
established and used by the Milwaukee PD over DOJ equitable sharing receipts
to accomplish our audit objective. We did not assess the reliability of the
Milwaukee PD financial management system or internal controls of that system
or otherwise assess internal controls and compliance with laws and regulations
for the city of Milwaukee as a whole.

        Our audit included an evaluation of the city of Milwaukee’s FY 2010
Single Audit. The Single Audit Report was prepared under the provisions of
Office of Management and Budget Circular A-133. We reviewed the
independent auditor’s report, which disclosed no control weaknesses or
significant noncompliance issues related specifically to the Milwaukee PD.




                                    - 12 ­

                                                                                                                    APPENDIX II

                                                                                                                               


                                    AUDITEE RESPONSE





   ~ ~fty
lVIilwaulme                                        Pollee D&pllrl ment
                                                                                                         Edward A. Flynn
                                                                                                            OhIolor ..... l...

                                               June 27, 2013

  Carol S. Taraszka
  Regioual Alldit Manager
  U.S. DeplH1ment of Justice
  Office of the Inspector General
  500 W. Madison Street, Suite 1121
  Chicago, IL 60661-2590

  Dear Ms. Tarll!7.ka:

  This leiter is in response to your Agency's !Iudit oflhe Milwaukee Police Depmtmcnl's (M'JlD)
  Equitable Sharing Progra m Activit ies for fisclli ycnr's 20 I 0·2011. The MI'D agrees with each of
 the 4 recommendations and has taken steps to ensure [hat these c.xceplions do not occur IIgain in
 the fu ture.

 Recommendation No. I: Ens ure filii! Ihe City of Milwnultee nccul'ately I"CPOl'ts tbe Ml'D'~
 equitable sharing expenditures 011 ils Schedule of EX(lcudihu'es of Federal Awa rds.

 TIl(: MPD has confirmed that the City Comptroller's Office has put into ploce procedures which
 will erulllre tbat this report will aceumtcly be submitted in the future.

 Recolllme nd a tion No.2: Ens ure Ihntthe Milwaukee MI'D submi ts nll l'equ k ed Eqnitable
 Shadng Ag r ee men ts nnd Certifi cation n cports iu a timely manuel'.

 TIle MPD has made ebftll&cs hllemally to ensure that oil future rep0l1s will be submitted in H
 timel y J'ilshion.

 Recommendation No, 3: .~lI s ure tbat the MPD submits n corrected 2011 Equitable ShAring
 Agreemenl lI ud AllIuml Ccrtifieatiou Report reflecting th e eoneet lIIunbel' of vehicles Il mt
 wel'e received through tb e DOJ equ it able sh oring (l"ogl1l1l1.

 The MPD is preparing a corrected 201 1 Equitoble Shoring Agreement and Amlllal Certification
 Report lind witl submit it within 30 days.

 Re comm endation No, 4; EU5 urc HUlt tlte M.PD establishes III'oeedul'cs to ensure th nt It
 recei ves pel'luinioll from AFMLS befo r e it sells IIny eq uit ably shn n:d ]lrO]lel'iy th a i hns nol
 b ee n ma intained fo r th e l'Cq uil'ed 2-year period and thflt it delJOs its any III'oceed, from s11ell
 a sale to its DOJ equltuble shn r illg fUlid.

 The MPD has established procedures to meet this requirement.




 PoIic. ~l,allon 6ui1c11ng, 149 w.o. Stale Sttoel, Pol. 0I1c. Box 531. Mi"'_ _ . WIscon$O'I532(I1·0631 (414)933-«44
                                      Web SH,,, Mp~/I·IWW.mII"mn.""'8.govlpolce




                                                         - 13 ­

Carol S. TamszkA
June 27, 20 13
Page 2



Thank you And your staff for the thorough And professional audit of this importAnt progmm for the
City of Milwaukee Police Department. Please contact me with any questions you may have at
935-7200.

                                    Sincerely,


                                    tka
                                    EDWARDA.r~
                                    CHIEF or POLICE


cc:    Joel Plant, Chief of Staff
       Daniel Rotar, Budget & Admin Mgr




                                              - 14 ­

                                                                                 APPENDIX III

                                                                                             


         U.S. DEPARTMENT OF JUSTICE RESPONSE


                                                   U.S. Department of Justice

                                                   Criminal Division



                                                   Was!Jington, D.C 20530




                                             JUN 19 201l

:vIEMORANDUM

TO:           Carol Taraszka
              Regional Audit Manager
              Chicago Regional Audit Officc
              Office of the Inspector General (OIG)

FROM:         Gene Patton. Assistant Deputy ,Chief' C\'
              Asset Forfeiture and Money Laundering Section (AFMLS)

SliBJECT:     Draft Audit Report for the Milwaukee Police Department Equitable Sharing
              Program Activities

        In a memorandum to Mythili Raman, dated June 10, 2013, your office summarized the
status of the above referenced report and detailed actions necessary for final closure ofthe
outstanding audit report recOlmnendations. The following is a list of the audit report
recommendations pertaining to the Milwaukee Police Departmcnt's (MPD) equitable sharing
program activity:

        Recommendations:

              1. Ensure that the city of Milwaukee accurately reports the MPD's
                  equitahle sharing expenditures on its Schedule of Expenditures of Federal
                  Awards.

              2. Ensure that the MPD submits allnquil'ed Equitable Sharing Agreement
                 and Certification Reports in a timely manner.

              3. Ensure that the MPD submits a corrected 2011 Equitable Sharing
                 Agreement and Annual Certification Report reflecting the correct
                 number of vehicles that were received through the DOJ equitable sharing
                 program.

              4. Ensure that the MPD establishes procedures to ensure that it receives
                 permission from AFMLS before it sells any equitably shared property
                 that has not been maintained for the required 2-year period and that it
                 deposits any proceeds from such a sale to its DOJ equitable sharing fund.




                                           - 15 ­

       The Asset Forfeiture and Money Laundering Section (AFMLS) concurs with thesc
recommendations and will request that the MPD implement the recommended policies and
procedures and provide documentation verifying the con'ective actiom taken.


ce:   Louise M, Duhamel, Ph. D.
      Assistant Director
      Audit Liaison Group
      Justice Management Division

      Denise Turcotte
      Audit Liaison
      Criminal Division




                                            2




                                     - 16 ­

                                                                 APPENDIX IV


               OFFICE OF THE INSPECTOR GENERAL


              ANALYSIS AND SUMMARY OF ACTIONS
   

                NECESSARY TO CLOSE THE REPORT 


      The OIG provided a draft of this audit report to the Criminal Division and
the Milwaukee PD. The Milwaukee PD’s response letter is incorporated in
Appendix II of this final report, and the Criminal Division’s response is
incorporated in Appendix III of this final report.

       The following provides the OIG analysis of the responses and a summary
of actions necessary to close the report.

Recommendation Number:

1.	
  	   Resolved. In its response, the Criminal Division’s Asset Forfeiture and
      Money Laundering Section (AFMLS) stated that it concurs with our
      recommendation to ensure that the city of Milwaukee accurately reports
      the Milwaukee PD’s equitable sharing expenditures on its Schedule of
      Expenditures of Federal Awards. In its response to the draft report, the
      Milwaukee PD stated that it has confirmed that the City Comptroller’s
      Office has put procedures into place that will ensure that the Schedule of
      Expenditures of Federal Awards will be accurately submitted in the
      future.

      This recommendation can be closed when we are provided with evidence
      of the new procedures that the Milwaukee PD has established to ensure
      that the city of Milwaukee accurately reports the Milwaukee PD’s
      equitable sharing expenditures on its Schedule of Expenditures of Federal
      Awards.

2.	
  	   Resolved. In its response, AFMLS stated that it concurs with our
      recommendation to ensure that the Milwaukee PD submits all required
      Equitable Sharing Agreement and Annual Certification Reports in a timely
      manner. In its response to the draft report, the Milwaukee PD stated
      that it has made changes internally to ensure that all future Equitable
      Sharing Agreements and Certification Reports will be submitted in a
      timely fashion.

      This recommendation can be closed when we receive evidence that the
      Milwaukee PD has implemented procedures to ensure that it submits all
      required Equitable Sharing Agreement and Annual Certification Reports
      in a timely manner.




                                     - 17 ­
3.	
  	   Resolved. In its response, AFMLS stated that it concurs with our
      recommendation to ensure that the Milwaukee PD submits a corrected
      2011 Equitable Sharing Agreement and Annual Certification Report
      reflecting the correct number of vehicles that were received through the
      DOJ equitable sharing program. In its response to the draft report, the
      Milwaukee PD stated that it is preparing a corrected 2011 Equitable
      Sharing Agreement and Certification Report and will submit it within
      30 days.

      This recommendation can be closed when we receive evidence that the
      Milwaukee PD has submitted a corrected 2011 Equitable Sharing
      Agreement and Annual Certification Report reflecting the correct number
      of vehicles that were received through the DOJ equitable sharing
      program.

4.	
  	   Resolved. In its response, AFMLS stated that it concurs with our
      recommendation to ensure that the Milwaukee PD establishes procedures
      to ensure that it receives permission from AFMLS before it sells any
      equitably shared property that has not been maintained for the required
      2-year period and that it deposits any proceeds from such a sale to its
      DOJ equitable sharing fund. In its response to the draft report, the
      Milwaukee PD stated that it has established procedures to meet this
      requirement.

      This recommendation can be closed when we receive evidence that the
      Milwaukee PD has established procedures to ensure that it receives
      permission from AFMLS before it sells any equitably shared property that
      has not been maintained for the required 2-year period and that it
      deposits any proceeds from such a sale to its DOJ equitable sharing fund.




                                    - 18 ­

